                             Closeout Memo
                              OIG 90-3106    CM@+O~)

        se was received from             , a program officer
         on November 11, 1 9 8 m r o p o s a l NO.-
                                        in the Department of



  discussions and-through reading a preprint and had used' that
  information in     loping his proposal. Hence he was implying
  plagiarism on
  OIG wrote to                    him if he would like to provide
  relevant                     replied with an account of his past
  contacts with                      a history of his work in areas
  related to the proposal.
  OIG asked the assistance of                   in analyzing this
  reply. By this time the                            for technical
  reasons and she had no further involvement with it. Her r e ~ l v
  supported the conclusion            should have given
  more credit for their                          in his
  but that there was n    vidence of misconduct.  This conciusion
  was communicated to @in    a letter (dated )              and to
i            n a phone call.
